State of Louisiana
DEPARTMENT OF JUSTICE
OFFICE OF THE ATTORNEY GENERAL
P.O. BOX 94005
BATON ROUGE
70804-9005

November 6, 2020

By electronic submission
The Honorable Scott S. Harris
Clerk of Court, Supreme Court of the United States
1 First Street, NE
Washington, D.C. 20543
Re: Eric Brown v. Louisiana (20-5610)
Dear Mr. Harris:
This Court has requested a response from the Respondent, the State of Louisiana, in this matter. The brief in
opposition is currently due on November 16, 2020. Recently the Louisiana Department of Justice became
involved with this petition for certiorari. Considering the issues involved, the State requests an extension of
sixty (60) days in which to file its brief in opposition.
The new due date would be January 15, 2021. The undersigned has communicated with counsel for
Petitioner and he does not oppose this request.

JEFF LANDRY
ATTORNEY GENERAL

_________________________________
Elizabeth B. Murrill
Solicitor General
cc: Chris Aberle

